U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Daniel Enrique Cantú v. James M. Moody, et al., No. 19-1033
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 14,
2020. The government’s response is now due, after one extension, on April 20, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 8, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1033
CANTU, DANIEL ENRIQUE
JAMES M. MOODY, ET AL.

JEROLD D. FRIEDMAN
LAW OFFICE OF JEROLD D. FRIEDMAN
19744 BEACH BLVD.
SUITE 390
HUNTINGTON BEACH, CA 92648
213-536-1244
PAUL W. HUGHES
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET NW
WASHINGTON, DC 20001
202-756-8000
PHUGHES@MWE.COM

